                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM




          This case was generated from a proactive review identifying awards where 20% or more of the
          award expenditures were drawn during the last quarter of the award and prior to the financial
          close of the award. We reviewed the award1 expenditures meeting that criteria and the source
          documentation provided by the institution: and determined the expenditures were appropriate.

                    Accordingly, this case is closed.




                                                  -




          -
NSF OIG Form 2 (1 1/02)
